                                                         IG-00-004




AUDIT
                            MANAGEMENT AND ADMINISTRATION OF
REPORT                     INTERNATIONAL AGREEMENTS AT NASA

                                      January 14, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
 Space Administration

Additional Copies
To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at http://www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CBSC           China Broadcasting Satellite Corporation
FMM            Financial Management Manual
GAO            General Accounting Office
ISS            International Space Station
NPD            NASA Policy Directive
NPG            NASA Procedures and Guidelines
W                                                                           January 14, 2000



TO:         A/Administrator

FROM:       W/Inspector General

SUBJECT: INFORMATION: Management and Administration of
        International Agreements
         Report Number IG-00-004


The NASA Office of Inspector General has completed an audit of Management and
Administration of International Agreements. We found that controls are generally adequate to
ensure international agreements are appropriately executed and monitored. However,
documentation and information related to the international agreements were not complete or
accurate. As a result, the Agency is relying on incomplete and inaccurate information when
drafting new international agreements or responding to inquiries. In addition, the Agency has
held a deposit of about $200,000 from a foreign government corporation for more than 15 years
for launches of two satellites that never occurred. The Agency may not be entitled to the funds.

Background

The Space Act permits NASA to enter into agreements with other U.S. entities, state and local
governments, institutions and foreign governments to accomplish its mission. The NASA Office
of External Relations is responsible for developing and implementing Agency international
policies, including drafting, coordinating, negotiating and maintaining records on all international
agreements, and for ensuring that Agency programs are conducted in accordance with
Administration and Agency international policies. As of May 1999, NASA had about 3,200
nonreimbursable and 300 reimbursable international agreements. The Office of External
Relations, NASA Headquarters, maintains a library of copies of NASA’s international
agreements on-site at to support daily management operations. Original agreements are
maintained off-site in permanent record storage and are not readily available. The Office of
External Relations also maintains a computer based database of NASA’s agreements to facilitate
identifying agreements, responding to inquiries, reporting, and to support daily operations.
                                                                                                2

Recommendations

We recommended that the Associate Administrator for External Relations (1) establish controls
to ensure the completeness and accuracy of documentation and information in the
international agreements library and database. We also recommended that the Chief Financial
Officer (2) promptly review and dispose of the funds in the foreign deposit account and (3)
identify and review other reimbursable international agreement accounts with no recent cost
activity.

Management Response and OIG Evaluation

Management concurred with the findings and recommendations. The Associate Administrator
for External Relations is designating a new International Agreements Database Administrator
and is identifying agreements concluded in recent years but not entered into the database. The
Office of External Relations is acquiring a document scanner to maintain the international
agreements library in an electronic format. Further, the Chief Financial Officer has transferred
the foreign deposit to the U.S. Treasury as miscellaneous receipts and is reviewing other accounts
to determine the appropriateness of deposit retention. The Chief Financial Officer anticipates
completion of this review in March 2000.

We consider two of the three recommendations dispositioned and closed for reporting purposes.
We are monitoring recommendation three concerning identification of other reimbursable
accounts with no recent cost activity for reporting purposes pending implementation of agreed-to
corrective actions.



[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Management and Administration of
 International Agreements at NASA
              FINAL REPORT
AUDIT OF MANAGEMENT AND ADMINISTRATION OF
    INTERNATIONAL AGREEMENTS AT NASA
W                                                                           January 14, 2000



TO:             B/Chief Financial Officer
                I/Associate Administrator for External Relations

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on the Audit of Management and Administration of
                International Agreements at NASA
                Assignment Number A9903600
                Report Number IG-00-004


The subject final report is provided for your use. Please refer to the Executive Summary for the
overall audit results. Our evaluation of your response is incorporated into the body of the report. The
corrective actions completed on recommendations one and two were responsive, and those
recommendations are considered closed for reporting purposes. Recommendation three will remain
open for reporting purposes pending implementation of agreed-to corrective actions. Please notify us
when action has been completed on recommendation three, including the extent of testing performed
to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
Director, Safety and Technology Audits, at (301) 286-0498, or Mr. William A. Garay, Auditor-
in-Charge, at (301) 286-9076. We appreciate the courtesies extended to the audit staff. See
Appendix D for the report distribution.



[original signed by]
Russell A. Rau

Enclosure
cc:
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
bcc:
B/Audit Liaison Representative
IM/Audit Liaison Representative
W/GSFC/K. Carson
        W. Garay
        D. Choma
Contents


Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. International Agreements Documentation and Records, 2

     Finding B. Retention of Foreign Launch Deposit, 6

Appendix A - Objectives, Scope, and Methodology, 9

Appendix B - NASA News Release, 11

Appendix C - Management’s Response, 12

Appendix D - Report Distribution, 16
                             NASA Office of Inspector General

IG-00-004                                                                              January 14, 2000
 A9903600


    Management and Administration of International Agreements at NASA

                                        Executive Summary


Background. The National Aeronautics and Space Act of 1958 (Space Act) permits the
NASA Administrator to engage in international cooperative programs pursuant to the
Agency’s mission. An International Space Act Agreement (international agreement) is an
agreement in which one or more of the partners is not a U. S. citizen or entity.
International agreements are formal written commitments of NASA resources to a
cooperative project and depending upon the significance of the agreement, are signed by
the President, Secretary of State, the NASA Administrator, or the Associate Administrator
for External Relations. An agreement is typically for scientific research that may take from
6 months to 30 years to complete. As of May 1999, NASA had about 3,200
nonreimbursable and 300 reimbursable international agreements.1 The Office of External
Relations is functionally responsible for management of NASA’s international agreements.

Objectives. The overall objective of the audit was to determine whether NASA’s
management of international agreements is adequate. Our objective related to this report
was to determine whether international agreements were appropriately executed and
monitored.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results of Audit. Controls are generally adequate to ensure international agreements are
appropriately executed and monitored. However, documentation and information related
to the international agreements were not complete or accurate. As a result, the Agency is
relying on incomplete and inaccurate information when drafting new international
agreements or responding to inquiries (see Finding A). In addition, the Agency has held a
deposit of about $200,000 from a foreign government corporation for more than 15 years
for launches of two satellites that never occurred. The Agency may not be entitled to the
funds (see Finding B).

1
 As of May 1999, the Office of External Relations was able to identify 3,200 nonreimbursable (no exchange
of funds between the partners) agreements since NASA’s inception, but could not readily identify those that
are currently active. Additionally, the Office of the Chief Financial Officer identified 300 active reimbursable
(payments to NASA for goods or services supplied) agreements, but could not identify the total number
completed since NASA’s inception.
Summary of Recommendations. We recommend that NASA management establish
controls to ensure the completeness and accuracy of documentation and information in the
international agreements library and database, promptly review and disposition the funds in
the foreign deposit account, and identify other reimbursable accounts with no recent cost
activity.

Management’s Response. Management concurred with each recommendation. The
complete text of the response is in Appendix C. We consider management’s comments
responsive.




                                             ii
Introduction

The Space Act grants NASA broad discretion in the performance of its functions. The
Space Act further permits the Agency to enter into agreements with other U.S. entities,
state and local governments, educational institutions, and foreign governments to
accomplish its mission. An “agreement” defined in the broadest context, includes any
agreement concluded under the authority of the Space Act (contracts, leases, cooperative
agreements, or other transactions). Agreements generally establish a set of legally
enforceable promises between NASA and another party to the agreement, requiring
commitment of NASA resources to accomplish the objectives of the agreement. An
international agreement may include nonreimbursable (no funds exchanged) or
reimbursable terms.

NASA’s Enterprises are responsible for identifying and competitively selecting scientific
and technical proposals leading to the initiation of international agreements for any
selected participation in NASA’s programs. The NASA Headquarters Office of External
Relations directs Agency international relations, including coordinating with foreign
entities, serving as NASA’s liaison with the Department of State, and ensuring programs
are implemented in accordance with Administration and Agency international policies. A
substantive role of the Office of External Relations is supporting NASA’s Enterprises by
drafting and negotiating international agreements.
Findings and Recommendations

Finding A. International Agreements Documentation and Records
The Office of External Relations does not have complete or accurate information on the
Agency’s international agreements. Specifically, the Office of External Relations did not
maintain copies of all agreements and did not ensure that the database of agreements
contained accurate information. This condition exists because management controls over
access to records and data input were either not implemented or not followed. As a result, the
Office of External Relations is relying on incomplete and inaccurate information when using
existing agreements or the database for drafting new international agreements or when
responding to inquiries from other Federal agencies, Congress, foreign entities, or the public.

NASA Requirements Related to International Agreements

NASA Procedures and Guidelines (NPG) 1050.1, “Space Act Agreements Manual,”
December 30, 1998, states that NASA has a statutory mandate to conduct its aeronautical and
space activities in cooperation with other nations. NASA’s foreign cooperative partners
typically are foreign governments, government agencies, or international organizations. Any
agreement with a foreign entity should be executed well in advance of the commencement of
significant joint activities. Otherwise, NASA assumes unnecessary legal risk if project
activities, such as exchange of detailed technical data or equipment or use of each party’s
facilities, take place without a legally binding agreement in place to appropriately allocate risk
of loss or damage and to impose conditions on treatment and use of technical data. NASA
Policy Directive (NPD) 1050.1F, “Authority to Enter into Space Act Agreements,”
November 13, 1998, assigns responsibility to the Associate Administrator for External
Relations for negotiating, executing, amending, extending, and terminating international
agreements.

NPD 1440.6E, “NASA Records Management,” April 29, 1997, contains guidance for all
NASA entities to follow to ensure Agency records are maintained in accordance with
applicable Federal policies and procedures. The NPD states:

               It is NASA policy to accurately and completely make and preserve records
               that contain documentation of the organization, functions, policies, decisions,
               procedures, and essential transactions that are designed to furnish the
               information necessary to protect the legal and financial rights of the
               Government and of persons directly affected by the Agency’s activities,
               preserve institutional memory, and permit NASA to be responsive to
               Congress and oversight agencies.

International Agreements Library and Database Discrepancies

Significant discrepancies exist between the international agreements library and database,
which are both maintained by the Office of External Relations. The library did not contain
copies of agreements that the database indicated were on file. In contrast, the library



                                                     2
contained copies of agreements that the database indicated were not on file. The Office of
External Relations library and database manager stated that all agreements identified in the
database should be present in the library and that all agreements in the library should be
identified in the database. To test the accuracy of the database, we selected a judgmental
sample of 812 international agreements from a total of 3,202 NASA international agreements
recorded as of April 8, 1999. The sample represented those international agreements
approved from January 1, 1990, through March 24, 1999.

We identified discrepancies in the database for 163 (about 20 percent) of the 812 agreements
sampled. For example, the database indicated that copies of 673 of the 812 agreements were
on file in the library. However, the library did not contain copies of 147 of the 673
agreements that records in the database showed were on file. The database also indicated that
copies of 139 of the 812 agreements were not available in the library. Copies of 16 of the 139
agreements were in the library. Based on our sample results, the international agreements
library is incomplete and information in the international agreements database is often
inaccurate.

The incompleteness and inaccuracy of the international agreements library and database are
further evidenced by the absence of agreements related to the International Space Station
(ISS). The ISS is one of NASA’s most significant international programs and includes the
participation of numerous foreign countries. Although agreements between each of the
international partners and NASA were signed on January 29, 1998, copies are not in the
library and are not recorded in the database.

Factors Contributing to Discrepancies

Information on international agreements maintained in the library and database is incomplete
and inaccurate because management controls were either not implemented or not followed.
The library of international agreements is in an open and easily accessible area of the Office of
External Relations at NASA Headquarters where the agreements can be taken by anyone. The
Office of External Relations does not use basic controls such as a document sign-out system
that would establish accountability when an agreement is taken.

The accuracy of information in the database is dependent on the timely input of details into
the database on all new agreements as they are executed. The Office of External Relations
recently established a requirement that one individual in each division office is responsible for
inputting information on all new agreements. Additional management emphasis on updating
existing information in the database will help ensure that complete and accurate information is
readily available for all of NASA’s international agreements.

Need for Complete and Accurate Information

The library and database of international agreements are important resources used by the
Office of External Relations. In addition, Center personnel involved in international programs
and projects informed us that they were dependent on the Office of External Relations to


                                                3
maintain permanent copies of their respective agreements. The office utilizes this information
to assist in its mission of coordinating NASA’s international policies and programs with other
Federal agencies, Congress, foreign entities, and the public. To illustrate, the House of
Representatives Committee on Science asked the General Accounting Office (GAO) to
provide information on the U.S. government’s international science and technology
agreements that support and encourage international cooperation in research and development.
The GAO report entitled “Federal Research, Information on International Science and
Technology Agreements,” April 1999, provides information on international agreements from
seven agencies including NASA. The GAO report states that information provided by NASA
was limited in scope because the Agency could not easily identify its total universe of active
agreements. NASA relied on the international agreements database as a source of information
in responding to the inquiry. A complete and accurate library and database would allow the
Office of External Relations to readily provide information on international agreements in
response to these types of inquiries.

Additionally, the Office of External Relations uses the information in the library and database
as reference material when preparing and negotiating new international agreements. The
introduction section of a new, successor, implementing, or related-subject agreement often
cites prior agreements with the same country. Copies of all agreements should also be
maintained in order for the Agency to ensure compliance with the agreements’ provisions,
which are generally governed by international law.

Recommendation for Corrective Action
The Associate Administrator for External Relations should:

1. Establish controls to ensure that copies of all international agreements are maintained in
   the library and that information in the database is complete and accurate.

Management’s Response

Concur. Management is designating a new International Agreements Database Administrator
and is identifying agreements concluded in recent years but not entered into the database.
Management has included the database activity within the International Organization for
Standardization 9001 Headquarters Office Work Instruction “Formulation and Approval for
International Space Act Agreements.” Management also clarified that the library contains
working copies of NASA’s agreements and that originals are maintained in permanent
storage. The Office of External Relations is acquiring a document scanner and will maintain
the library of working copies of agreements in an electronic format. The complete text of the
comments is in Appendix C.




                                               4
Evaluation of Management’s Response

The actions taken by management are responsive to the recommendation. We consider the
actions sufficient to disposition the recommendation, which will be closed for reporting
purposes.




                                             5
Finding B. Retention of Foreign Launch Deposit

NASA continues to retain funds on deposit for reimbursable services that were not rendered.
Specifically, NASA received a deposit of about $200,000 in 1984 from a foreign government
corporation for Space Shuttle launch services that were never provided. The deposit is being
retained because the Office of the Chief Financial Officer has not reviewed the NASA
reimbursable account on a regular basis. Consequently, there has been no determination on
whether the Agency is entitled to the funds it has retained for more than 15 years.

NASA Financial Management Manual Requirements

The NASA Financial Management Manual (FMM), Chapter 9090, “Reimbursable and Other
Customer Agreements,” establishes financial management policies related to entering into
reimbursable and other customer agreements. The FMM defines a reimbursable agreement as
a binding agreement with customers for NASA to sell or rent materials, equipment, or
services. The FMM further provides that NASA will not initiate work or services or incur
reimbursable obligations until reimbursable agreements are signed and reimbursable funds are
available.

The FMM assigns responsibility to Enterprises or Functional Offices for preparing, approving,
monitoring, reviewing, and terminating Headquarters-negotiated, reimbursable agreements.
The NASA Headquarters Office of the Chief Financial Officer, Accounting, Reporting and
Analysis Branch is responsible for reviewing and concurring on Headquarters-negotiated,
reimbursable agreements and for maintaining financial records and related reports. The
Headquarters Financial Management Division is responsible for sending the final billing
statement to the reimbursable customer within 1 year of completion of the agreement.

Earnest Money Deposit for Launch Services

NASA continues to retain funds on deposit for launch services that were never provided. In
October 1984, NASA received an earnest money deposit of $199,985 from the China
Broadcasting Satellite Corporation (CBSC) for the planned (January and September) 1988
launches of two direct broadcast satellites from the Space Shuttle (see Appendix B). The
deposit was recorded in the Agency’s accounting records in Headquarters deposit account
80X6555, “Advances Received from Reimbursable Customers (Central Office).” The
Reimbursable Agreement Numbers of 1453-001-00-A and 00-B were established for the
services to be provided. A Request for Flight Assignment (STS Form 100), signed by the
president of the CBSC, accompanied the earnest money deposit.

The Agency has retained the deposit, even though NASA never provided launch services to
the CBSC. Personnel in the NASA Headquarters Office of Space Flight confirmed that the
launches never occurred and that they are not scheduled. Our review of accounting records
further verified that no costs were recorded against either of the reimbursable agreement
numbers.




                                              6
Events Affecting Provision of Launch Services

Several events occurred after receipt of the earnest money deposit that could have precluded
NASA from providing the launch services to the CBSC. In April 1985, NASA became aware
that the CBSC intended to establish firm launch dates only after a spacecraft supplier had been
selected. The Office of Space Flight planned that a formal launch services agreement would
be completed after the spacecraft supplier was selected and the launch requirements were
known. NASA notified the CBSC that the January 1988 launch date could be rescheduled to
a later date since a spacecraft supplier had not yet been selected. The January 1986 explosion
of the Space Shuttle Challenger during take-off resulted in a revised NASA policy with
respect to commercial satellite launches. Specifically, the Agency directed that payloads that
can be launched on expendable launch vehicles could fly on the Shuttle only under
“compelling circumstances.” There is no record of official contact between NASA and the
CBSC subsequent to these events.

Personnel in the Office of Space Flight stated that during the 1984 period, the Office of Space
Flight had informed Space Shuttle customers that earnest money deposits for launches were
nonrefundable. Documentation was not available for us to determine whether the CBSC had
been advised of or agreed to these terms. Office of Space Flight personnel also stated that
NASA may be entitled to some portion of the deposit on the basis that administrative costs
were probably incurred and chargeable. However, Office of Space Flight personnel did not
have documentation supporting any costs, nor were any recorded in the Agency’s accounting
records against either agreement number.

Review of Reimbursable Agreements

The earnest money deposit from the CBSC has remained on NASA’s records for more than 15
years because the Office of the Chief Financial Officer did not review this reimbursable
agreement account on a regular basis. Section 9090 of the FMM requires that a final billing
statement be sent to reimbursable customers within 1 year of agreement completion. To
comply with the requirement, the Chief Financial Officer must review each agreement file
annually. There is no evidence of a review or follow-up by the Chief Financial Officer to
assess the status of the deposit account in the CBSC reimbursable agreement file.

Effect of Continued Deposit Retention

NASA’s continued retention of the CBSC’s earnest money deposit of $199,985 places the
Agency in the position of retaining funds to which it may not be entitled. The Office of Space
Flight informed us that there might be other deposits on NASA’s records for which
reimbursable services were never provided. NASA’s Office of General Counsel was unable
to cite a legal precedent permitting NASA to keep customer deposits for Agency use when
services had not been provided. Management should take actions to appropriately review and
disposition the CBSC deposit account and any other reimbursable international agreement
deposit accounts for which there has been no cost activity since receipt of earnest money
deposits.


                                               7
Recommendations for Corrective Action

The NASA Chief Financial Officer should:

2. Promptly record any costs identifiable with the CBSC earnest money deposit, and
   appropriately dispose of the balance in the appropriate deposit account.

3. Review other reimbursable international agreement accounts for which there has been no
   cost activity since receipt of earnest money deposits to determine the appropriateness of
   deposit retention.

Management’s Response

Concur. For recommendation two, management stated that the entire balance of $199,985
was transferred to the U.S. Treasury as miscellaneous receipts in December 1999. With
respect to recommendation three, management is reviewing all international agreement
accounts to determine the appropriateness of deposit retention. The anticipated completion
date for this review is March 2000.

Evaluation of Management’s Response

The actions taken and planned by management are responsive to the recommendations. We
consider the actions sufficient to disposition recommendation two, which will be closed for
reporting purposes. Recommendation three is considered resolved, but will remain
undispositioned and open until agreed-to corrective actions are implemented.




                                              8
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether NASA’s management of
international agreements is adequate. Our objective as discussed in this report was to
determine whether international agreements were appropriately executed and monitored.

The remaining audit objectives, which will be addressed in a separate audit report, were to
determine whether:

•   appropriate clearances were obtained for foreign personnel with access to NASA facilities
    and information, and

•   controls over release of information were established.

Scope and Methodology

We obtained an overall understanding of how international agreements are managed and
administered at both NASA Headquarters and Center levels. We performed a limited review
of operating procedures at NASA Headquarters and at Goddard Space Flight Center
(Goddard). During the audit, we:

•   Identified and reviewed NASA’s policies and procedures for management and
    administration of international agreements.

•   Interviewed personnel in NASA’s Office of External Relations, NASA’s Office of
    Management Systems, Goddard’s International Visit Coordinator’s Office, Goddard’s
    Security Office, and the Goddard International Projects Office to obtain an understanding
    of operating procedures.

•   Reviewed nonreimbursable and reimbursable agreements for compliance with NASA’s
    approval process.

•   Performed limited testing of agreements more than 9 years old to assess the adequacy of
    management oversight.

To test the validity of data in the Office of External Relation’s international agreements
database, we judgmentally selected a sample of 812 agreements from a total universe of 3,202
agreements recorded in the database as of May 1999. The sample represented the
international agreements approved from January 1, 1990, through March 24, 1999. We
compared each selected record in the database to documentation maintained in the library to
assess the accuracy of the information in the database.



                                               9
Appendix A

Management Controls Reviewed

We reviewed management controls at NASA Headquarters and Goddard. The significant
management controls related to NASA’s international agreements are contained in:

•   NASA Policy Directive 1360.2, “Initiation and Development of International Cooperation
    in Space and Aeronautic Programs,” April 19, 1999.

•   NASA Procedures and Guidelines 1050.1, “Space Act Agreements Manual,”
    December 30, 1998.

•   NASA Policy Directive 1050.1F, “Authority to Enter into Space Act Agreements,”
    November 13, 1998.

•   NASA Policy Directive 1440.6E, “NASA Records Management,” April 29, 1997.

•   NASA Financial Management Manual 9090, “Reimbursable and Other Customer
    Agreements,” June 1999.

Management controls were generally considered adequate pertaining to the overall
management and administration of international agreements. The opportunity to further
strengthen these controls exists through implementation of the recommendations in this
report.

Audit Field Work

We conducted field work from April through October 1999 at NASA Headquarters and
Goddard. We performed the audit in accordance with generally accepted government auditing
standards.




                                             10
Appendix B. NASA News Release




             11
Appendix C. Management’s Response




               12
     Appendix C




13
Appendix C




             14
     Appendix C




15
                          Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
I/Associate Administrator for External Relations
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science

NASA Centers

Director, Goddard Space Flight Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs


                                             16
                                                                               Appendix D

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees (Cont.)

House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on International Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                            17
                     NASA Assistant Inspector General for Auditing
                                    Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness
of our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For
your convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Final Report on the Audit of Management and Administration of International
Agreements at NASA

Report Number:                                        Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5        4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      EXCELLENT              FAIR
      VERY GOOD              POOR
      GOOD
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                  Media
       NASA Employee                        Public Interest
       Private Citizen                      Other:
       Government:           Federal:            State:       Local:


May we contact you about your comments?

Yes: __________                            No: __________

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation
Major Contributors to this Report

Kevin J. Carson, Program Director, Safety and Technology Audits

William A. Garay, Auditor-in-Charge

Diane R. Choma, Auditor

Nancy C. Cipolla, Reports Process Manager
